<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, MARCH 2, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Burns, Allard, and 
Dorgan.

                         DEPARTMENT OF DEFENSE

                 Under Secretary of Defense for Policy

STATEMENT OF TINA W. JONAS, UNDER SECRETARY OF DEFENSE 
            (COMPTROLLER)
ACCOMPANIED BY ADMIRAL ROBERT F. WILLARD, DIRECTOR, FORCE STRUCTURE, 
            RESOURCES, AND ASSESSMENTS, OFFICE OF THE CHAIRMAN, JOINT 
            CHIEFS OF STAFF


                opening statement of senator ted stevens


    Senator Stevens. Good morning. We're pleased to have you 
appear before us, Ms. Jonas. And I see you're accompanied by 
Admiral Willard, the Director of the Force Structures, 
Resources, and Assessments of the Joint Chiefs. We look forward 
to your testimony. I appreciated our visit before the hearing.
    We remain in some very critical missions around the globe, 
and totally involved in this war on terrorism. We are truly 
grateful for the commitment of the forces under the Department 
of Defense, and their commitment to duty and the values we 
stand for. We've received this request for supplemental funding 
and are reviewing that request. I had an occasion last night to 
discuss it with Members of the House, also. We're going to do 
our best to move as rapidly as possible on this request.
    This is the first of 10 hearings that we will hold on the 
total request of the Department for fiscal year 2006. The 
President's request includes $419.3 billion for the Department 
of Defense, which is a 4.8 percent increase over last year.
    We will make your statement part of the record in full, Ms. 
Jonas, and I would leave room in the record for a statement 
from our co-chairman, if he wishes to make one.
    Would the chairman of the full committee wish to make a 
statement?


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, I'm glad to be here to help 
welcome the Under Secretary and Admiral Willard to the hearing. 
We appreciate very much your assistance to our committee's 
inquiry into the budget request submitted by the 
administration. We are very impressed--I'm very impressed with 
the military's performance in these very difficult and 
challenging times in Afghanistan, Iraq, the southern Indian 
Ocean and elsewhere around the world. I think the military has 
distinguished itself in a way that reflects great credit on all 
of the men and women who serve in the military, and who support 
the military directly in the Department of Defense. We 
appreciate that good work and the outstanding bravery and 
sacrifice of the families, and for all who are contributing to 
the successful operations around the world in our behalf.
    I also happened to observe a letter I got from a pilot, who 
was on the Abraham Lincoln, describing his firsthand 
impressions of the relief efforts that were spontaneously 
provided by our military forces in the region of the tsunami 
disaster that struck without warning and with such great 
unbelievable damage. The military forces who were involved 
voluntarily in reacting to that, and the leadership provided by 
the military in some of those areas of the world, was truly 
outstanding. And I commend you all who have had a role in 
helping make available resources to that operation.
    We're interested in understanding the budget request and 
making sure that what we do in terms, of appropriating funds to 
support your efforts, continues us on this path toward 
contributing, like no one else can, to world peace and security 
and the protection of our homeland.
    Thank you very much.
    Senator Stevens. Well, thank you very much, Mr. Chairman.
    Senator Allard.


                   statement of senator wayne allard


    Senator Allard. Mr. Chairman, thank you. I appreciate you 
allowing me to join you this morning. And I don't have any 
opening comments or anything, and I'll save most of my time for 
when we get to the question and comment.
    Senator Stevens. Thank you.
    I would say, to my two colleagues, that Senator Inouye and 
I had occasion to visit with Admiral Fargo and listen to him in 
describing some of his impressions about the way the commander 
of the Pacific reacted after the tsunami disasters. And we were 
very impressed with the total commitment that was made and the 
swiftness of the organization to respond to that terrible 
incident.
    As I said, we have printed your statement in the record. 
Ms. Jonas, we'd be pleased to have your comments.


                   opening statement of tina w. jonas


    Ms. Jonas. Thank you very much, Mr. Chairman. I won't take 
much time here this morning, but just to thank the subcommittee 
for inviting us here to discuss the President's fiscal year 
2006 Defense budget request.
    As you have noted, the request is $419.3 billion. This is a 
4.8 percent increase over the fiscal year 2005 enacted level, 
and we look forward to working with you on this request as we 
move forward, and also appreciate the subcommittee's 
consideration of our fiscal year 2005 supplemental request.
    I would simply like to point out a few of the highlights in 
this budget. Some of the highlights of this budget include our 
commitment to supporting the global war on terror. In 
conjunction with the supplemental funds, we have included 
significant funds for readiness. Our operation and maintenance 
(O&M) funds are at $147.8 billion. This is up $11 billion over 
the fiscal year 2005 enacted level. Four billion dollars of 
that increase directly goes toward readiness. And so, that's an 
important feature of the budget. We've included additional 
funds for chemical and biological defense. Funding for fiscal 
year 2006 is $1.6 billion. We added $2.1 billion to the program 
for fiscal years 2006-2011.
    We continue our commitment to the special operations forces 
(SOF), sustaining that and including additional personnel, 
about 1,400 new personnel. And the funding for special 
operations forces is about $4.1 billion for fiscal year 2006.
    We have included a request for special operations forces 
retention funds in this budget, as well as requested some funds 
in the fiscal year 2005 supplemental. And I would just note 
that, since 2001, we're up 73 percent on our SOF budget, so we 
continue our commitment there.
    A key feature of this budget is also the restructuring of 
our ground forces. As many of you have heard, we have made a 
commitment to the Army to provide about $48 billion for their 
modularity program, using a combination of supplemental and 
baseline funds to do that.
    I would also note that we have $1.9 billion in the budget 
to implement the 2005 Base Realignment and Closure (BRAC) 
Commission recommendations, which is very important to 
restructure our installations at home. And, in conjunction with 
that, we are funding the global posture initiative, about $400 
million for that. The key is that these two initiatives are 
intertwined, and the BRAC recommendations will be informed by 
the global posture initiative. Under the global posture 
initiative, we expect to bring home to the United States (U.S.) 
about 70,000 military personnel, and about 100,000 families. So 
that's very important.
    Also key in our investment areas, we are developing joint 
military capabilities. We've got a $78 billion procurement 
budget, and this is $3 billion higher than our fiscal year 2005 
President's budget request. I would just note that this is 
about double what it was during the mid 1980s, so we continue 
our investment there. And procurement does increase over the 
program plan, reaching $119 billion by 2011.
    We continue our commitment to missile defense. We have 
about $8.8 billion in the program, and $7.8 billion in the 
Missile Defense Agency.
    We continue investment in shipbuilding and in aircraft, and 
I have some of those details in my prepared statement.
    Finally, I'd just like to mention that we have a strong 
commitment to our military families and our military members. 
We increased the base pay by 3.1 percent. We're increasing our 
benefits. For our healthcare benefits, we added $1.6 billion to 
the defense health program to make sure that the program is 
fully funded.
    We continue our no-out-of-pocket-cost commitment on basic 
allowance for housing. Most servicemembers will receive about a 
4 percent increase to that allowance in this budget. And we are 
on track to fund the elimination of all inadequate housing by 
2007.


                           prepared statement


    I just would like to close and, again, thank you. I know 
you've heard from the Secretary on the fiscal year 2005 
supplemental request, and I'd be happy to answer any questions.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Tina W. Jonas
    Mr. Chairman, members of the committee, it is my pleasure to be 
here to discuss President Bush's fiscal year 2006 defense budget 
request. You have received extensive materials on the budget, which I 
do not want to duplicate in my statement. Instead I will briefly 
underscore some of the most important features of our request.
    First, I want to thank this committee for its strong support for 
our men and women in uniform. We look forward to continuing to work 
with you to ensure that our armed forces have everything they need to 
carry out their difficult and dangerous missions.
    The President's budget request for the Department of Defense (DOD) 
for fiscal year 2006 is $419.3 billion in discretionary budget 
authority, a $19.2 billion increase (4.8 percent) over the fiscal year 
2005 enacted level. Combined with fiscal year 2005 supplemental 
appropriations, this request includes sufficient funding to sustain the 
President's pledges to defeat global terrorism, restructure America's 
armed forces and global defense posture, develop and field advanced 
warfighting capabilities, and take good care of our forces.
                  supporting the global war on terror
    The fiscal year 2006 budget supports the Global War on Terror 
(GWOT) by keeping U.S. forces combat ready and strengthening our 
overall defense capabilities. Readiness is especially critical in this 
time of war because forces must be prepared to deploy on short notice. 
Reflecting this importance, the fiscal year 2006 budget includes $147.8 
billion in Operation and Maintenance (O&M) accounts--where training, 
maintenance, and other readiness essentials are funded--nearly $11 
billion over the fiscal year 2005 enacted amount.
    Critical to the fight against terror, the President's plan adds 
$2.1 billion in fiscal year 2006-2011 for chemical and biological 
defense --achieving total funding of $1.6 billion for fiscal year 2006. 
We sustain our commitment to our Special Operations Forces (SOF) 
capabilities, providing $4.1 billion for fiscal year 2006. We are 
adding 1,200 military personnel, including 4 SEAL platoons, and 200 
civilians. We also are adding $50 million for programs to boost SOF 
retention. (The fiscal year 2005 supplemental includes $62 million for 
SOF retention.) Since 2001, our investment in SOF capabilities is up by 
$1.7 billion or 73 percent. The budget includes $9.5 billion for 
activities related to homeland security--such as detection and 
protection against weapons of mass destruction, emergency preparedness 
and response, and protection of critical infrastructure.
          restructuring u.s. forces and global defense posture
    The fiscal year 2006 budget provides funding to continue to work to 
restructure U.S. forces and our global defense posture and basing.
    Restructuring Ground Forces.--The Department has made a major 
commitment to restructuring the Army--adding $35billion over 7 years 
(fiscal year2005-2011) to the $13 billion in the Army baseline budget. 
In fiscal year 2005 and fiscal year 2006, the Department proposes to 
fund Army restructuring through supplemental appropriations because 
acceleration of this effort is urgent and vital to the war on terror. 
The funds requested in supplementals will accelerate the restructuring 
of the ground forces moving into the theater and reset those forces 
rotating out of theater. This effort will expand the operating combat 
force of the Army--making our forces more effective in the Global War 
on Terror and reducing the demand and strain on our military units and 
troops. Beginning in fiscal year 2007, we will request funding in the 
baseline budget to restructure the rest of the Army.
    Restructuring will increase the number of Army brigades and convert 
them into brigade combat teams (BCTs) that are capable of independent 
operations. The Active Army will expand from 33 maneuver brigades in 
fiscal year 2003 to 43 BCTs in fiscal year 2007.
    The Marine Corps is restructuring to add two active infantry 
battalions and other combat and support units--increasing its 
warfighting power and reducing stress on capabilities that are 
currently in high demand.
    Base Realignment and Closure (BRAC).--The President's budget also 
includes $1.9 billion in fiscal year 2006 to implement the 2005 BRAC 
Commission recommendations. The previous BRAC rounds eliminated about 
21 percent of DOD infrastructure and generated savings of about $7 
billion per year.
    Global Posture.--Closely linked to the BRAC process is the 
President's global posture restructuring, which will ensure that U.S. 
forces and equipment are located where they can best respond to likely 
requirements in today's security environment. It will return 70,000 
military personnel and 100,000 family members to the United States, and 
relocate forces and equipment that must remain overseas. As the 2005 
BRAC Commission considers how to streamline and restructure the 
Department's installations, it will have the benefit of this global 
posture restructuring plan.
          developing and fielding joint military capabilities
    The fiscal year 2006 budget funds a balanced combination of 
programs to develop and field the capabilities most needed by America's 
military--today and well into the future.
    Procurement funding in fiscal year 2006 is $78 billion, $3 billion 
higher than the President's fiscal year 2005 budget request of $74.9 
billion. This $78 billion is almost double the low point of $42.6 
billion provided in fiscal year 1996. Future procurement funding will 
steadily increase and reach $119 billion in fiscal year 2011.
    Missile Defense.--The fiscal year 2006 budget includes $7.8 billion 
for the Missile Defense Agency to continue to strengthen U.S. missile 
defenses, focusing more intensely on the most promising technologies. 
The fiscal year 2006 budget supports the continuing acquisition of 
Ground-Based Interceptors, Standard Missile 3 missiles, and increased 
radar capabilities in California and Alaska. As you know we just had a 
successful test of an interceptor missile launched from an Aegis 
cruiser--the fifth successful sea-based intercept in six tests.
    Shipbuilding.--The budget includes $9.4 billion in fiscal year 2006 
for shipbuilding. This funding supports procurement of four ships: a 
Virginia class submarine, an LPD-17 San Antonio class amphibious 
transport dock ship, a Littoral Combat Ship, and a T-AKE dry cargo and 
ammunition ship. The Navy's restructuring under its Fleet Response Plan 
has made more of its ships available for rapid deployment. In addition, 
with precision weapons and newer platforms, today's ships and naval 
aircraft are far more capable. For example, the Navy now measures 
targets destroyed per sortie rather than the number of sorties per 
target. These changes are increasing the effective size and capability 
of the Navy.
    Army Modernization.--The modernization of the Army and the 
development of new combat capability are critical to the future of its 
restructured modular force. Most critical is the Future Combat Systems 
(FCS) program, which will develop a family of advanced, networked, air 
and ground systems--combat and support, manned and unmanned. FCS 
funding is $3.4 billion in fiscal year 2006. The program has been 
restructured to deliver transformational technologies to today's force 
as soon as they mature. The advantage of this change is that it will 
accelerate the upgrading and increased joint operability of current 
Army forces.
    Aircraft.--The fiscal year 2006 budget continues our investment in 
the new generation of tactical aircraft, including $5.0 billion for the 
Joint Strike Fighter, $4.3 billion for the F/A-22, $2.9 billion for the 
F/A-18E/F, and $1.8 billion for the V-22 Osprey. Under current plans 
the Air Force is scheduled to procure F/A-22s through fiscal year 2008 
to reach a total of 179 aircraft. The budget also includes $3.7 billion 
for the C-17 and $1.5 billion for unmanned aerial vehicles. The 2005 
Quadrennial Defense Review will assess U.S. capabilities for sustaining 
air dominance and other aircraft requirements as part of its broader 
analysis.
                       taking care of our forces
    Most importantly, the fiscal year 2006 budget maintains the 
President's commitment to take good care of our military people and 
their families. It reflects our conviction that people are the nation's 
most important defense asset. The budget includes a 3.1 percent 
increase in military base pay and provides significant funding to 
ensure high quality health care for our military families. The fiscal 
year 2006 budget provides about $20 billion for the Defense Health 
Program and $7 billion for the military personnel who support the 
health care program. The budget sustains our commitment to no out-of-
pocket costs for military members living in private housing, by 
increasing the Basic Allowance for Housing by an average of 4 percent. 
And the budget keeps the Department on track to fund by fiscal year 
2007 the elimination of all inadequate military family housing units in 
the United States, and to fund by fiscal year 2009 the elimination of 
all inadequate units worldwide.
              fiscal year 2005 supplemental appropriations
    Before closing, I want to thank this committee for beginning work 
quickly on the President's fiscal year 2005 supplemental appropriations 
request of $74.9 billion for the Department of Defense. Rapid and full 
approval of the request is crucial to fulfilling our military's 
requirements for the rest of this fiscal year.
    Two-thirds of the supplemental is to cover costs for ongoing 
military operations in Iraq and Afghanistan. In addition, the 
supplemental includes $11.9 billion to restore or replace equipment 
damaged or destroyed in combat. This funding is crucial to ensure the 
readiness of the force. It consists of $3.2 billion for depot 
maintenance, $5.4 billion to replace military items destroyed or 
expended during combat operations, and $3.3 billion to improve 
protection of our forces.
    The supplemental also funds the vital strategic goal of training 
and equipping military and security forces in Iraq and Afghanistan. 
Strengthening these forces is essential to the long-term security and 
stability in both nations, and will enable them to become more self-
sufficient and less reliant on U.S and coalition forces.
                                closing
    In conclusion, the President's fiscal year 2005 supplemental 
request and fiscal year 2006 budget provide the funds necessary to 
support the global war on terror, restructure our forces and America's 
global defense posture, develop and field advanced military 
capabilities, and maintain the well-being of our military people and 
their families. I urge your support for this request, as well as for 
the President's proposed fiscal year 2005 supplemental appropriations. 
Thank you.

    Senator Stevens. Well, thank you very much.
    I know the chairman has another hearing at Homeland 
Security. Would you have any questions, Senator?
    Senator Cochran. Mr. Chairman, the only question I have 
relates to the supplemental.
    You know, that we have had a review of that supplemental, 
and it will be coming to the floor soon. We understand that it 
is a matter of some urgency, although when we were having our 
initial hearing and reviewing the request, there was some 
question about when the money actually was needed. Some said in 
March; others, April or later. What is the situation with the 
need for this supplemental for some $75 to $76 billion for the 
Department of Defense?

                      WHEN SUPPLEMENTAL IS NEEDED

    Ms. Jonas. Well, first of all, Mr. Chairman, I appreciate 
the cooperation of this subcommittee and the full committee 
with respect to moving that legislation along. We can get 
through the second quarter fairly easily. Getting into the 
third quarter, we begin to have some difficulty. And, as you 
may know, the services have to then make plans in anticipation 
of their funding flows. So I would say once we start getting 
into the third quarter, we begin to have some issues.
    Senator Cochran. Okay.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    And I share the chairman's comments about that. I'm still 
not clear what you said, however. You said you could get 
through the second quarter. That ends in March. And you have 
difficulties in the third quarter.
    Ms. Jonas. I think----
    Senator Stevens. When do you really need the money?
    Ms. Jonas. Certainly by April or May, sir.
    Senator Stevens. Can you draw a line in the sand?
    Ms. Jonas. April would be better than May, sir.
    Senator Stevens. We're concerned about the stress on the 
total force and what this means to retention. I'm informed 
that--this is an all-volunteer force, of course--that the Army 
retention was retained last year at the 10 percent goal, but 
the ability to maintain their contribution to the total force 
is still of some concern, and that the marines missed their 
requirement by a small amount, the first time in 9 years. Can 
you tell us what initiatives are contained in this program for 
fiscal year 2006 that would help reduce the stress on the 
military and their families and help us with retention and 
recruitment?

                    REDUCING STRESS ON THE MILITARY

    Ms. Jonas. Certainly, Mr. Chairman. I would note, in the 
fiscal year 2005 supplemental, we are asking to increase our 
bonuses for those who are willing to join the Reserves, and 
asking to pay for a maximum up to $10,000. So that relief would 
be helpful.
    Senator Stevens. That's for people who decide to become 
regular? They're in the Reserves; they want to sign up--you 
want them to sign up and become regular forces?
    Ms. Jonas. This is encouraging Active duty to sign up for 
the Reserves.
    Senator Stevens. Oh, the other way around.
    Ms. Jonas. Yes, sir.
    Senator Stevens. Would they remain on Active duty, then?
    Ms. Jonas. They would be joining the Reserve. And I'll 
defer here to Admiral Willard on that.

                       ACTIVE/RESERVE RECRUITING

    Admiral Willard. Sir, these are Active duty that are ending 
their terms in Active duty and would transfer into the Reserve 
force, with a likelihood that they would, under their current 
circumstances, be called up to continue to perform.
    Senator Stevens. How is that program going? Is it underway 
now?
    Admiral Willard. It's currently in the budget, so, yes, 
sir, in that sense, it is. As you point out, there are 
challenges, and they're more widespread than just incentivizing 
transfers from Active to Reserve. I would comment that, within 
the supplemental, there are a variety of efforts underway to 
reduce stress on the force. The reorganization of our ground 
forces, the modularity program for the Army, is one method of 
doing that, in trying to increase the number of brigade combat 
teams that are deployable. So we are attempting to reduce the 
ratio that--for deployment--that we are currently encountering. 
And that will happen over time. So, once again, a number of 
incentives to try and reduce the stress on the force. As you 
point out, the retention and recruitment numbers for the Army 
are down; and, for the Marine Corps, are very slightly down.
    I would note that, in the Active force, we are in pretty 
good shape in recruitment and retention, and that this is the 
time of year when we typically have a downturn in monthly 
recruitment/retention. And following schools getting out in the 
summertime, we normally make the upturn, so that at the end of 
the year this evens out. We have more concern in our Reserve 
component with regard to recruitment and retention. And, there, 
we're monitoring the trends very closely. And the incentives, 
as Secretary Jonas points out, are going to be an important 
factor in attempting to maintain the numbers there.
    Senator Stevens. Thank you.

                 PHASING IN NEW FUNDING FOR OPERATIONS

    Ms. Jonas, the supplemental that we have before the full 
committee is $42.5 billion to support military operation and 
equipment. I'm informed that the operating funds will expire on 
September 30 under that proposal, and that the estimated 
recurring military operational costs average $4.3 billion a 
month for operations, and $800 million a month for Operation 
Enduring Freedom, in Afghanistan. Now, tell us how these fit 
together. Your current funds, are they exhausted for 2005? And 
when does the money from the supplemental have to phase into 
those operations?
    Ms. Jonas. Thank you, Senator.
    First of all, if I hadn't mentioned it, we appreciate the 
help that we got from the Congress--and your subcommittee, 
specifically--on the $25 billion that has been appropriated. 
Seventeen billion of that has been allocated to the services 
for operations. The $3 billion has been also allocated for 
force protection matters, and they are currently using those 
funds.
    I can certainly get you, for the record, the exact 
obligation rates, but they are using those funds currently.
    [The information follows:]

    As of February 28, 2005, $30.4 billion has been obligated 
in support of the Global War on Terror from funds appropriated 
in Title IX ($25 billion) and from cash flowing of fiscal year 
2005 baseline funds. A summary of the amount obligated is shown 
below:

                        [In millions of dollars]
------------------------------------------------------------------------
                                     Baseline     Title IX
                                      Funds        Funds        Total
------------------------------------------------------------------------
Operation Iraqi Freedom..........       16,287        9,558       25,845
Operation Enduring Freedom.......        2,528        1,072        3,600
Operation Noble Eagle............          905  ...........          905
                                  --------------------------------------
      Total......................       19,720       10,630       30,350
------------------------------------------------------------------------

    Ms. Jonas. We would certainly hope to have this 
supplemental legislation that we've put before you, the $74.9 
billion, as soon as possible to help alleviate the concerns of 
the services. Again, I would say probably April would be better 
than May, with respect to getting those funds. I don't have the 
exact obligation rates for you this morning. I would be happy 
to provide that for the record on the $25 billion, though.
    Senator Stevens. Well, what I'm really trying to get at is, 
we gave you $25 billion, which was, sort of, a cushion to take 
you--a bridge funding to take you through this year. It sounds 
like you've allocated them--all of that money to operations and 
equipment maintenance. Is that right?
    Ms. Jonas. The preponderance of the funds; $17 billion is 
the right figure.
    Senator Stevens. And that, plus the funds that are already 
in 2005 are such that you've now got $42\1/2\ billion in 
addition to that, that you need before October 1, right?
    Ms. Jonas. Correct, sir. Yes, sir.
    Senator Stevens. Well, I don't think it takes a rocket 
scientist to figure out that you're spending it faster than the 
rate you've given us in the past, then. What is the rate that 
is being expended in operations and maintenance, on a monthly 
basis?
    Ms. Jonas. Our current operations in Iraq are running us 
about $4.1 billion. It's $800 million in Afghanistan per month.
    Senator Stevens. Well, I think we need to understand this 
cash flowing a little bit better, because we're going to get 
some questions about this supplemental if we're not careful.
    Let me turn this over, however, to the chairman, if he has 
any additional requests, and then to--Senator Burns, I think, 
came in before Senator Allard.
    Senator, do you have any additional questions?
    Senator Cochran. I have no further questions.
    Senator Stevens. Senator Burns.
    Senator Burns. Thank you very much, Mr. Chairman.

                 GAINING MORE RAPIDLY DEPLOYABLE UNITS

    Monday, I was out in San Diego and did a little tromping 
around out there. And I was reminded that, 50 years ago, right 
now, I was a boot out there in that Marine Corps Recruit Depot 
(MCRD). And I didn't have to get my nose broke this time to 
remind me. I know how you can save a little money in this 
budget. I noticed that there's a big push now for restructuring 
ground forces, focusing on Army brigade light units for quick 
strike force in the United States Army. I would suggest you've 
already got it. I would suggest you've got a United States 
Marine Corps that is a strike force, and the best in the world. 
Mobile. So why are we training people to do this redundancy? If 
I noticed anything in the supplemental that came up, both in 
the State Department and for Defense, we identified some areas 
where there is some redundancy.
    My question is, How come we're not looking in that 
direction, rather than restructuring a unit that is designed to 
do other things? Can I get a response to that?

                            ARMY MODULARITY

    Admiral Willard. Yes, sir, you can. The Army is 
reorganizing to try and make itself more rapidly deployable, 
flexible, more self-sustaining, in terms of the units that they 
put in the field. At the same time, the Marine Corps is 
restructuring itself--to a lesser extent, but, nonetheless, 
restructuring itself--with the addition of infantry battalions, 
combat support, and combat service support elements.
    I'm not sure ``redundancy'' is the term that I would use. 
But, rather, the variety of our ground forces, whether it be 
Army, Marine Corps, special operations, are all undergoing an 
evolution right now to try and reorganize themselves and 
optimize themselves. And the question we would ask is whether 
the capacity for the country is there among those ground 
forces. And we believe that it will require reorganization 
across the board and an understanding of not only roles and 
missions, but a capabilities mix across the board that will get 
this right. It's intended that that is one of the study areas 
in the upcoming Defense review. But, again, the supplemental 
makes an effort to establish that organization across our 
ground forces, specifically targeting Army and Marine Corps, 
right now.
    Senator Burns. Well, I just thought there was some 
redundancy. And it appears, as you know, if you read where the 
money is going, and how it's going, that would seem to be 
something that we would take interest with up here on the 
taxpayer dollar. And I'm not one of these that think that we 
can get it done on nothing. But we know that we're in a 
different kind of a world now. We are in a different kind of a 
challenge to this country and its freedoms. And so, there has 
to be some things redundant that some of us up here might not 
understand. But I appreciate your comments on that.
    That's the only thing that I have right now. I think, in 
this budget, we've got the opportunity to do right. I usually 
visit military installations that are in Montana, and will be 
coming to you for a little problem we've got up there, but 
that's for another day. And it's not a problem; it's just 
another challenge that we have, as far as our defense and 
capabilities and our concerns.

                           PREPARED STATEMENT

    So, thank you for coming today. And I thank the chairman.
    And I have a statement that I would like to be part of the 
record, and I will ask unanimous consent that it be so.
    Senator Stevens. Without objection, so ordered.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Thank you, Mr. Chairman.
    Ms. Jonas, Admiral Willard, thank you for being here this 
morning to testify on the Department of Defense's (DOD) fiscal 
year 2006 Budget. I will keep my statement brief and retain the 
remainder of my remarks for the record.
    I note that the President's budget request for the 
Department of Defense for fiscal year 2006 is $419.3 billion--
excluding the supplemental, also before this committee for 
consideration--representing a $19.2 billion increase (or 4.8 
percent) over last year's fiscal year 2005 level. I think the 
fiscal year 2006 budget on the whole, is a good one. Your job 
is not an easy one--especially in the current environment, with 
military operations around the world and in the midst of the 
ongoing War on Terror. I do think, however, despite all of the 
competing interests at hand, you were able to strike a fairly 
good balance between all accounts and competing needs. This 
budget appears to be one that funds core needs to allow troops 
currently engaged, to do so safely and to the best of their 
ability.
    I am pleased to see that this budget also prepares our 
military forces for future engagements, where battlefields will 
look much different than they have in years past. We must 
ensure our military transforms in such a way as to have the 
right military capabilities for any future engagement. An 
overall Research and Development (R&D) request of $69.4 billion 
helps get us there.
    As you know, the men and women of our active, Guard and 
Reserve components have seen an increased operations tempo 
(optempo) over the past few years in particular. In my State of 
Montana, we have over 40 percent of the Guard's total force 
mobilized. While I know these men and women love what they do 
and love serving their country, this increased optempo does 
not, however, come without costs--costs not only to guardsmen 
and reservists themselves, but also to their families and 
employers, too.
    I am pleased to see that the budget addresses this issue 
and looks at ways to rebalance our forces and reduce the need 
for involuntary reserve mobilization. I do think it is 
important to look at ways to add folks to areas where we 
currently have a shortage, such as military police, 
transportation and civilian affairs. I see we are doing exactly 
this, in this budget.
    Increased operations also wear and tear on the military's 
already aging equipment. This year's budget proposes $147.8 
billion for the Operation and Maintenance (O&M) account, up 
from $137 billion in fiscal year 2005. The procurement account 
has been proposed at $78 billion, just slightly down from the 
fiscal year 2005 enacted level of $78.1 billion.
    The United States military would not be the best fighting 
force in the world without the great people who wear the 
uniform. It is important that we take care of our military men 
and women and ensure their quality of life is good. I am 
pleased to see this is a priority in the fiscal year 2006 
budget. The Military Personnel account is funded at $108.9 
billion in fiscal year 2006, while the Military Construction 
and Family Housing accounts request is a total of only $12 
billion. I note the 3.1 percent increase in military base pay 
and the 2.3 percent increase in civilian pay included in the 
President's budget. I am also pleased to see the 4 percent 
increase in the Basic Housing Allowance, and that DOD appears 
to be on track to eliminate all inadequate military family 
housing in the United States by fiscal year 2007. The budget 
also includes the expansion of TRICARE benefits, to allow 
health care coverage up to 90 days prior to activation for 
certain Reserve Components, with post-mobilization coverage of 
180 days.
    Our military has performed nobly in all of its missions--
especially in Afghanistan and the continuing conflict in Iraq. 
This country's fighting force is extremely skilled and capable, 
and it is our responsibility to ensure our brave military men 
and women have the tools and equipment needed to do their job 
so they may return home to their loved ones safely and as 
quickly as possible.
    You will continue to have my full support in making sure 
our brave military men and women--wherever they may be 
engaged--have the tools, training and equipment to do the 
dangerous jobs with which they have been tasked.
    Again, thanks for coming before our subcommittee today. I 
look forward to your testimony this morning.

                       CHEMICAL DEMILITARIZATION

    Senator Stevens. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    Ms. Jonas, I had a chance to visit with you and Mr. 
Wolfowitz yesterday. And you were sitting on his right hand 
when I was drilling him about the Chemical Weapons Convention 
Treaty.
    Ms. Jonas. That's right, sir.
    Senator Allard. And so, I don't know as I need to go over 
that too much. I would like to put some in the record in this 
subcommittee, though, and the fact that the President's budget, 
Defense budget, provides for $1.4 billion for chemical weapons, 
the demilitarization program. Now, that's consistent with 
previous requests, but it doesn't measure up to the full cost 
of the program, as we see it. And, you know, I look out as to 
what dates we're expected to comply with that convention, and 
the plant in Colorado, for example, is a decade past the 
deadline. I know Kentucky has a special problem, just like we 
do, so you'll probably hear from Senator McConnell also, on 
this very issue. We had testimony from Secretary of State 
Condoleezza Rice who said that when we sign into those treaties 
it's important that--in fact, she was unequivocal about this--
she said that it's important that we comply with the treaties. 
We're pretty well behind on the dates of expected compliance on 
the treaty. And so, we'll be asking some tough questions. It 
seems to me like the program has been backsliding. And I know 
we have special problems in both Kentucky and Colorado, and we 
want to work with that.
    And the question I have--Mr. Wolfowitz, yesterday, said 
that he's going to reexamine where we are, as far as that 
program is concerned. I appreciate his willingness to do that. 
But what I failed to get from him was a timeline.
    Ms. Jonas. Okay.
    Senator Allard. When does he expect to get back--or when 
you would expect to have the reexamination completed and get 
back to me and also the Kentucky delegation?
    Ms. Jonas. Certainly. Senator, we'd be happy to work with 
you, as the Deputy Secretary indicated yesterday, and also with 
the other concerned Senators and delegations.
    I don't know that I have a timeline for you this morning, 
but I would certainly be able to do that and find out soon and 
get back with you and your staffs. We will continue to work 
closely with you as you consider this legislation and as we 
work to figure out some of the cost issues that the Deputy 
talked about yesterday.
    [The information follows:]

    As directed by the December 23, 2005 Acquisition Decision 
Memorandum the Program Manager, Assembled Chemical Weapons 
Alternatives and Director, Chemical Material Agency developed 
an assessment of alternatives for meeting the Chemical Weapons 
Convention extended 100 percent deadline of April 2012. On 
April 15, 2005 the Under Secretary of Defense for Acquisition, 
Technology & Logistics made a decision to exclude 
transportation for the time being and to proceed with the 
alternatives that balanced cost, schedule, and performance. The 
Program Manager, Assembled Chemical Weapons Alternatives and 
Director, Chemical Material Agency will provide the program 
plan by mid-May that includes the design effort schedule. The 
Under Secretary of Defense for Acquisition, Technology & 
Logistics will review and approve the critical designs based on 
the schedule submitted in mid-May.

    Senator Allard. Yes, I've got a lot of concerns about the 
program. I appreciate your being willing to work with the 
deadline. You know, if we looked at the GPRA, you know, 
Government Performance and Results Act, their evaluation of 
that program was an ineffective rating in the last budget. I 
haven't had a chance to look at it on this budget. There are so 
many questions on that program, I think it needs to be 
examined. You can expect me to be there.
    Ms. Jonas. Yes, sir.

                        MISSILE DEFENSE PROGRAM

    Senator Allard. The other thing that I have concern on is 
the Missile Defense Program. I use to chair the subcommittee 
that had oversight in Armed Services on missile defense. I 
noted in the President's budget that he has cut it by $1 
billion. We're also looking at, perhaps, some additional cuts 
in the future. I think somebody suggested that in the 
Department of Defense. So I would like to hear some of your 
thoughts and what your plans are for missile defense.
    Ms. Jonas. Okay. I may turn some of the planning piece over 
to the Admiral to talk to. I would say this budget maintains a 
commitment to the Block 2004 and the Block 2006 programs, which 
are substantial. The Block 2004 program has 20 ground-based 
interceptors, 10 sea-based interceptors. And, of course, the 
Block 2006 program would add an additional 20 ground-based 
interceptors and an additional 40 sea-based, and with the 
accompanying radars and infrastructure on that.
    So the President remains committed to this program. We 
remain committed to the program. And maybe the Admiral can fill 
in a little bit on the rest of the program.
    Senator Allard. Okay.
    Admiral.

                            MISSILE DEFENSE

    Admiral Willard. And I think the points that Secretary 
Jonas brings up, with regard to achieving our milestones with 
regard to interceptors, is an important element of this, to 
represent the fact that this budget supports the missile 
defense levels of effort, ongoing.
    General Obering has been asked to look for efficiencies 
within his organization, and he's done that, and that's been 
part of the savings that we've seen. In addition, his 
methodology for achieving his missile defense objectives dealt 
with a number of different programs, varieties of options, to 
attain those missile defense objectives that he was intending 
to neck down over time as some of those options became more 
promising than others. And he is doing that.
    And, frankly, the savings that were taken from missile 
defense has had him invest in that option sooner rather than 
later. And, in a fairly recent summary of his missile defense 
activity, it's evident to us that he has both achieved the 
efficiencies and has laid out his milestones to attain the 
President's objectives in missile defense with this savings 
intact.
    So, we're confident that General Obering has the plan to 
achieve what we hope to achieve objectively out of missile 
defense.

         SUSTAINING MISSILE DEFENSE TESTING AND QUALITY CONTROL

    Senator Allard. Well, I'm pleased to hear that, you know, 
you're getting more missiles in the ground and you're going 
ahead with that. I do think that we need to make sure we don't 
back off on our testing, because, as you know, the last two 
failures we had--as far as I'm concerned, weren't because of 
new technology. The gates aren't opening right or there's a 
misfiring of some type on the ground, and we haven't even 
gotten an interceptor in the air. So we've got to have some 
controls in that, because every time you have a failure in 
something like that--and particularly when it's older 
technology and it ought to be operating--it's difficult to 
explain up here to those people who oppose missile defense. 
It's a great program. We need to have it, and we need to make 
sure that it doesn't stumble.
    And so, I would hope that we have the testing part of it, 
so we don't have the old technology, so we could test out the 
new technology, find out how it performs in the air. We have 
had a lot of good tests, that succeeded. Then we've had some of 
these failures. They've been disappointments to me, because it 
hasn't been on the new technology side; it's been on the old 
technology side.
    So, again, I just raise some concerns about that and would 
hope that, if you're cutting back on the spending on that, that 
where we've got enough quality control in there that we're not 
losing sight of our older technology. We know it works. We just 
have to make sure the mechanics of it are there so we get a 
successful firing. So I just wanted to share that with you.
    Mr. Chairman, I don't want to abuse my time here. I don't 
have a time limit here. So I will yield back. And if there's 
more time later on, I may have some more questions. Thank you.
    Senator Stevens. Well, since there are so few of us, I 
decided not to put a time limit on, but we'll come back to you, 
Senator.
    Senator Dorgan.

                MONTHLY SPENDING IN IRAQ AND AFGHANISTAN

    Senator Dorgan. Mr. Chairman, thank you very much.
    I have read the statement. I was detained this morning. I'm 
sorry I wasn't here for your presentations. But I would like to 
ask a couple of questions.
    We have had questions, previously, about the amount of 
money that is being spent on a monthly basis in Iraq and 
Afghanistan. My understand is, you were asked that question 
this morning, and the answer is about $4.9 billion----
    Ms. Jonas. That's correct----
    Senator Dorgan [continuing]. Per month?
    Ms. Jonas [continuing]. Senator.

          WHAT OPERATIONS FUNDING IS INCLUDED IN SUPPLEMENTAL

    Senator Dorgan. Questions have been raised previously about 
what is in your budget request for the next fiscal year and 
what is left out of the request. I want to just take you 
through this issue of why the request does not include funds 
for ongoing operations in Iraq and Afghanistan. I've raised 
this the last two successive years. And the Congress also 
included a provision, as you will recall, last year, asking 
that the President's budget should include a request for funds 
for Iraq and Afghanistan operations.
    Having said that as a precursor, tell me, the supplemental 
request that is now before the Congress includes funding for 
what kind of operations that have not been requested in your 
annual budget?
    Ms. Jonas. Certainly, the funds that are included in the 
supplemental are those related to Operation Enduring Freedom 
and Operation Iraqi Freedom. In the past, we've asked for 
Operation Noble Eagle costs in the supplemental. We've included 
those in the baseline budget this year, which is a change.
    Senator Dorgan. But if I can try to understand this, the 
costs for an operation, the costs would include the cost of the 
soldiers. Obviously, the cost of the soldiers----
    Ms. Jonas. For personnel----
    Senator Dorgan [continuing]. Exists whether you have the 
operation or don't have the operation. So that's a cost that I 
assume is in your regular budget request.
    Ms. Jonas. Yes. Our estimates are based on a cost model, 
which includes a number of different things, including 
personnel, transportation, other special pays, depending upon 
the deployment.
    Senator Dorgan. Okay, personnel--we have the personnel, 
whether they're in Iraq or not in Iraq. We're paying for them. 
So are they not in the regular budget? I'm just trying to 
understand----
    Ms. Jonas. They're incremental costs, Senator.
    Senator Dorgan. What's that?
    Ms. Jonas. Incremental costs of personnel including special 
pays--for example, hazardous duty pay, danger pay, other types 
of things.

                            PERSONNEL COSTS

    Admiral Willard. Additionally, there are personnel overage 
right now that is attendant to the war, and in the Army, in 
particular, and that is captured, as well, in the supplemental.
    Senator Dorgan. And those costs are something like $75 
billion a year, over and above that which is in the regular 
budget for the cost of personnel, the cost of transportation, 
the cost of weapons and so on? It's $75 billion a year?
    Ms. Jonas. The military personnel costs are about $16.9 
billion. The operations costs are $31.1 billion. We've 
requested $16.1 billion for procurement. This is different from 
past supplementals, and that is associated with what we call 
wear and tear on the equipment. We include about $3.2 billion 
for depot maintenance. These are readiness-related matters.
    As the Admiral pointed out earlier, we've asked for some 
funds for the Army's restructuring or modularity.
    Senator Dorgan. Right.
    Ms. Jonas. And that, of course, is related to units that 
are rotating into the theater, and then they're reset when they 
come out. So we want to make sure that those that are going in 
are prepared and ready to go, and those that come out are--
their equipment is up to standard.
    Senator Dorgan. Let me ask, then, on--how much did you say 
was for wear and tear on equipment?
    Ms. Jonas. Well, we've got about $16 billion in the 
procurement account, which includes about $12 billion for the 
wear and tear, and also includes some force protection.
    Senator Dorgan. And that's in the supplemental.
    Ms. Jonas. Yes, sir.
    Senator Dorgan. How much is in next year's budget for wear 
and tear on equipment?
    Ms. Jonas. We can get that number for the record.
    [The information follows:]

    The wear and tear on equipment due to deployments in Iraq 
and Afghanistan are generally costs over and above the on-going 
baseline equipment maintenance program. The fiscal year 2005 
supplemental includes $5.3 billion to finance the incremental 
(that is, above the baseline appropriation) costs of equipment 
maintenance. The additional funding requested for fiscal year 
2005 is: $1.4 billion for organizational level maintenance; 
$0.7 billion for intermediate level maintenance and $3.2 
billion for depot level maintenance. This work is required to 
bring weapons and weapon system platforms up to ready levels 
after the wear and tear of combat operations in Iraq, 
Afghanistan, and other areas elsewhere in support of OIF and 
OEF.
    The Department anticipates that an fiscal year 2006 
Supplemental request will include funding for maintaining 
equipment returning from theater. The fiscal year 2006 cost has 
not yet been estimated but is likely to be in a similar range 
as reflected in the fiscal year 2005 supplemental.

    Ms. Jonas. We have normal depot maintenance that we do in 
the----
    Senator Dorgan. All right.
    Ms. Jonas [continuing]. In the regular budget.

                 APPROPRIATENESS OF USING SUPPLEMETALS

    Senator Dorgan. Whether it's personnel or wear and tear on 
equipment, it seems to me like this is a kind of a game, 
unfortunately, that no money is requested for these 
extraordinary expenses for Iraq and Afghanistan in the regular 
budget, anticipating that we'll do a supplemental later, on an 
emergency basis, not paid for. And we do that each year.
    Now, the year before last, I asked this question. Last year 
I asked this question. I asked the question again this year. To 
use Secretary Rumsfeld's terms, it is certainly not unknowable 
that we will have expenditures from the regular budget next 
year with respect to ongoing operations in Iraq and 
Afghanistan. You can argue, we don't know exactly what the 
expenditures will be, but it is also the case that we know they 
will not be zero. So won't there, at some point, be a 
requirement for you to give us your best estimates of what we 
expect to expend in the coming year?
    Ms. Jonas. Well, certainly, I understand there is a 
significant amount of discussion between the Congress and the 
administration on the appropriateness of using supplemental 
funding for the war. I would note that Director Bolten 
testified a few weeks ago before the Senate Budget Committee 
and articulated his position, which is that these funds are 
one-time, not permanent costs, and that his position was that 
they should be funded in supplementals.
    So we clearly work very closely with the Office of 
Management and Budget on that, and we will work with them in 
the future on any future requirements.
    Senator Dorgan. But with--you know, only in Washington 
could Mr. Bolten say that, without evoking some sort of 
laughter. We understand that these are more than one-time 
knowable costs. We understand that from the year previous, the 
year previous to that. At some point, it becomes a game. And I 
understand why some want it perpetuated; but it would make much 
sense, it seems to me, for the Congress to receive from you 
what you expect to expend in the coming year, given the 
circumstances that you face.
    We certainly are going to support, and I'm going to vote 
for, the request for the urgent supplemental. I'm not going to 
suggest, and I don't think my colleagues will, that we should 
commit our troops and then not give you everything that is 
requested to support those troops. But I think when you get to 
the third or fourth year, where your contention is we're going 
to spend zero in the next year, or at least you have no 
knowledge of what we will spend, therefore, you will request 
zero for the specific operations, I think the Congress will be 
better served if you would say, ``Look, here's our best 
estimate. And we understand things can change, but here's what 
we think we will have to spend.''
    Ms. Jonas. I understand your concern, sir.
    Senator Dorgan. And Congress has put that, as you know, in 
the statute and requested that you do that. And you have not, 
this year. Why not? As you know, the statute exists that says 
you should.
    Ms. Jonas. Sir, we are constantly working with the Office 
of Management and Budget on a number of these things. We are 
working with them on the particular provision that you cited.
    Senator Dorgan. All right.
    Let me just ask, for a moment, about missile defense. Do I 
have a couple of more minutes?
    Senator Stevens. Yes.

                       MISSILE DEFENSE REDUCTIONS

    Senator Dorgan. About missile defense. You know, I'm one of 
those that's skeptical. I think we're spending a great deal of 
money on something that, at the moment, is not demonstrated to 
work. And it's very unusual, in any circumstance, to be buying 
products that are not demonstrated to have worked. But the $8.8 
billion in fiscal year 2006 is down from the current spending 
level, is that correct?
    Ms. Jonas. Yes, sir.
    Senator Dorgan. And that relates to, Admiral, efficiencies 
in the program or to--can you describe to me the circumstances 
of the $1 billion reduction?

                            MISSILE DEFENSE

    Admiral Willard. Yeah. General Obering came back to the 
building to discuss the restructuring of his program, as would 
be necessary in order to incorporate those savings. And, in 
that, he showed a combination of efficiencies and decision 
points that he was making in order to neck down the number of 
options that he had for particular capabilities that he was 
seeking, based on their research and development programs, and 
the ones that appeared to be most promising. And he 
demonstrated his ability to deliver the interceptors, as 
Secretary Jonas pointed out earlier. So it's a combination of 
both in his plan.
    Senator Dorgan. Admiral, is there an open question of 
whether, at some point, this will be determined to be either a 
project or a program that works or doesn't work? And if there's 
a potential that we may decide, at some point, that it doesn't 
work--the last two tests, the missiles remained in the silo, 
for example--if there's a potential that, at some point, we may 
decide this doesn't work, would we then expect, on this 
subcommittee, a substantially reduced level of expenditure?
    Admiral Willard. I think, right now, that we're committed 
to the fact that it will work, and is working. And Senator 
Allard's point and disappointment with regard to the efforts 
that have occurred, the two test failures that have occurred 
that were really outside the high technology, new technologies 
areas, were a disappointment for all of us. I would point out 
that, on the maritime side, there was a successful test this 
past week in missile defense, and we are seeing progress made, 
both in terms of the technologies and in terms of those that 
are most promising in the concept of operations and in 
attaining this capability.
    So, first, I think the commitment that we're making in this 
budget to missile defense is based on a level of confidence 
that we have that we're on the right track. That said, we're 
constantly reviewing the appropriateness of all of our 
capabilities, to include missile defense, and will continue to 
do that. And we'll make adjustments along the way if, in those 
reviews, we determine that either the security environment has 
changed, or will change in the future, or our capabilities are 
more or less attainable.
    Senator Dorgan. My State housed the only antiballistic 
missile program that was ever deployed in this country. It was 
operational for only 30 days. But my own view is that the 
threat meter that would describe the threats against this 
country would provide that the least likely threat would be a 
rogue nation or a terrorist organization would use an 
intercontinental ballistic missile to deliver a nuclear 
warhead.
    Having said all that, we're spending a massive amount of 
money on this program at a time when we don't have quite as 
much money as we had hoped to try to deal with our fiscal 
policy issues. And I hope that we take a hard look at this 
program, with a critical eye. And if, at some point, we 
determine hitting a bullet with a bullet is not going to work, 
that we don't pursue this with tens and tens of billions of 
dollars.
    Let me----
    Senator Stevens. Senator, we're going to have to move on, I 
think.
    Senator Dorgan. Yeah, let me--Mr. Chairman, let me thank 
our witnesses.
    The first line of questioning is only to try to elicit, as 
best we can, what our total obligation and costs are going to 
be, not whether we support our troops or whether we support 
missions. I do, and want to be helpful, but I think, in the 
longer term, it is better for the Congress if we put all of 
these estimated costs on the table so that we can evaluate 
them. And I appreciate very much your service. Thank you for 
being here.
    Senator Stevens. Well, thank you very much, Senator.
    One of these days, we'll have to have a debate about that 
missile defense system, because I certainly disagree with what 
you said. The Aegis system worked four and five times. The 
system in your State would have worked. The decision was made 
to put it in my State, and we have had some malfunctioning, in 
terms of the test--launching the test vehicles from Kwajalein. 
But we still have every confidence that the system will work.
    Senator Dorgan. I think a debate of that type would be 
meritorious for this subcommittee, as a matter of fact.

              DEPARTMENT OF DEFENSE HEALTHCARE FACILITIES

    Senator Stevens. Senator Byrd is not here, Ms. Jonas, but 
he is very concerned about the status of the medical care 
facilities that are available. And he has had the good fortune 
of establishing, in West Virginia, a system to bring about a 
healthcare tool for the country at the country's leading 
military hospitals. It's Walter Reed's facility that is in West 
Virginia, called HealtheForces, and he was the one who 
initiated the cooperation between the two.
    Incidentally, I would like to talk to you about carrying 
out the commitments that were made in Alaska when we moved the 
Hospital of the Pacific to Anchorage from Clark Field. It was 
our understanding that such a facility would be established in 
Alaska, but it never has been established. And the people from 
Korea and all over the Pacific, fly all the way into the 
mainland rather than come to Alaska, which is a day short, 
really, almost, in terms of flying time, as far as people that 
need healthcare.
    But Senator Byrd's agreement between Walter Reed and 
Marshall University and the National Technology Transfer 
Center, with regard to diabetics and chronic disease sufferers, 
has been established. It is called the Byrd Center. And he has 
some--he believes this is a shining example of linking national 
healthcare advancements with local expertise to meet healthcare 
needs, a very worthwhile concept.
    How is this program progressing toward implementation in 
West Virginia now?
    Ms. Jonas. Senator, I would have to provide the details of 
that program's status for the record.
    [The information follows:]

    The Marshall's Byrd Center is currently implementing 
HEALTHeFORCES to selected facilities within West Virginia. The 
HEALTHeSURVEY module was implemented at Marshall University 
Medical Center in June 2004. HEALTHeCARD and HEALTHeNOTE 
modules were implemented in March 2005. Pre-implementation 
activities are currently underway at Tug River Health Clinic, 
McDowell County, WV.

    Ms. Jonas. I'd be happy to talk to the Army and to Dr. 
Winkenwerder about the program. I would simply say that--
healthcare is absolutely a critical and vital area for our 
military members and their families. We'd be very happy to work 
closely with Senator Byrd and his staff to make sure that the 
program is proceeding as intended by Congress.

   EXPANDED USE OF INFORMATION TECHNOLOGY TO REDUCE HEALTHCARE COSTS

    Senator Stevens. Well, the Senator has asked me to ask this 
specific question. Given the fact that President Bush has 
pointed to an expanded use of information technology as a 
primary way to reduce healthcare costs in America, and given 
the fact that the HealtheForces has proved to be incredibly 
cost efficient and consumer friendly, what steps will the 
Department take, in conjunction with the National Technoloogy 
Transfer Center (NTTC), to expand the use of this healthcare 
forces technology to other States? And I would invite it to 
Alaska, obviously.
    Ms. Jonas. Certainly, Senator. Again, I would be happy to 
provide the details of where we are with our information 
technology in the medical healthcare arena, particularly for 
those programs that you cited. I would be delighted to work 
with you and your staff, and Senator Byrd's staff, on that 
matter.
    Senator Stevens. Perhaps we will visit with some other 
representatives of the Department at a later date. I'm 
increasingly disturbed at the number of veterans in my State 
that have to fly to Seattle or Portland or San Francisco or Los 
Angeles, at their own expense, to deal with these problems of 
chronic diseases, and particularly diabetes and cancer, because 
there are no facilities in Alaska. But the people fly right 
over them that come in from Korea and from the bases in the 
Pacific--the North Pacific, I'm talking about now, rather than 
the South Pacific, going to Hawaii, obviously. But it's 
something that I would like to explore, also.
    Senator, do you have any further questions?
    Senator Allard. Mr. Chairman, I do have a couple of 
questions, if it's possible, that I would like to pursue, just 
briefly. It shouldn't take too long.
    Senator Stevens. I was urged to finish this by 11 o'clock. 
Why don't you take part of the time and I'll finish with the 
questions for the full committee.
    Senator Allard. Thank you, Mr. Chairman.
    I just want to, for the record, make the point that where 
we've shot a bullet with a bullet, or a rocket with a rocket, 
is a successful program. It's the Patriot advanced capability-3 
(PAC-3). It has been very successful. Our issues are with the 
long-term things, and a lot of that's coordinating 
communication and all of that.

                        MILITARY SPACE PROGRAMS

    But to move on to--I notice, in your written testimony, you 
didn't discuss any of the military space programs. And so, my 
question is, To what extent does the budget reflect the 
importance of military space programs, and particularly the 
ones--the Air Force is focused on developing a number of 
advanced satellites, including space-based radar, 
transformational communications satellites and space-based 
infrared radar system-High (SBIRS). Is there sufficient funding 
in the future year defense plan to sustain these programs?
    Ms. Jonas. Certainly, Senator, space is a very important 
aspect of our program. I can provide a lot of detail for the 
record, if you would like. On the SBIRS-High program, we have 
about $757 million in the program now; for the transformational 
satellite, about $836 million; for the space-based radar, about 
$226 million for that. We also have commitments to other 
programs, like the advanced extremely high frequency satellite. 
We've got about $1.2 billion in the program for that.
    So space is a fair amount of our investment, and we agree 
with the importance of space.
    [The information follows:]

    The fiscal year 2006 President's Budget request for the 
Space Based Infrared System (SBIRS)-High Program is $761 
million; the request for Space Radar is $226 million; the 
request for the Transformation Satellite (TSAT) Communications 
program is $836 million; and for the Advanced Extremely High 
Frequency (AEHF) Program is $1.2 billion. There is currently 
sufficient funding in the future year defense plan to sustain 
these programs.

            BASE REALIGNMENT AND CLOSURE COMMISSION SAVINGS

    Senator Allard. The second issue I want to discuss briefly 
is the BRAC process that's going into effect this year. And so, 
now we're beginning to talk about the 2006 budget. And so, I 
would assume it would have a little bit of an impact on the 
2006, maybe even more on 2007. So I'm interested in what you 
anticipate might be the savings with the BRAC in the early 
years here, and then as we progress over time. And to what 
extent, with our global posture, will that reduce the size and 
scope--do you think it will occur?
    Ms. Jonas. I can certainly talk to what we have 
experienced, in terms of savings in past BRAC rounds. We 
eliminated about 21 percent of our excess capacity in past BRAC 
rounds, and got about $17 billion worth of savings, and 
recurring savings of about $7 billion annually.
    Senator Allard. What was that? How many billion?
    Ms. Jonas. Seventeen billion dollars.
    Senator Allard. Seventeen billion dollars.
    Ms. Jonas. I believe that's a General Accounting Office 
(GAO) and Congressional Budget Office (CBO) estimate on that. 
But that's what we've done.
    Senator Allard. This is with past rounds.
    Ms. Jonas. With past BRAC rounds. I cannot speak to what we 
would expect. I'm not part of the group that is considering 
BRAC issues.
    With respect to global posture, certainly the BRAC 
Commission will be informed by the global posture initiative. 
Again, I cannot speak to the details of that; I'm not involved 
in that. But certainly it will have an impact.
    Senator Allard. Very good.
    Thank you, Mr. Chairman, for allowing me that extra time.
    Senator Stevens. Thank you very much.

                 ACHIEVING SUFFICIENT ARMOR PROTECTION

    Secretary Rumsfeld announced that we are really proceeding 
as rapidly as possible on appropriate armor for all vehicles in 
the war zone. I'm told that the Army has spent $4.1 billion on 
vehicle armoring, and this has provided armor packages for 
about 60 percent of the 35,000 tactical wheeled vehicles in the 
theater. I was further told that those that have not been up-
armored are kept within secure bases.
    Now, the Marine Corps has spent $290 million, so far, on, I 
think, 30,000-plus Humvees. Is the funding in this request now 
sufficient to ensure that we can tell people that all vehicles 
operating outside of protected compounds will have the 
appropriate armor protection soon? And how soon?

                             VEHICLE ARMOR

    Admiral Willard. Sir, the statement that was made by the 
Secretary during testimony was that General Casey had assured 
him that by February 15--so already past date--that, with few 
classified exceptions, no vehicles would be utilized outside 
their garrisons within Iraq without appropriate armor on them. 
So we are past that deadline date at this point, and the 
expectation is that our uniformed personnel that are 
transported around Iraq are in appropriately up-armored 
vehicles and convoys when they do it.
    Senator Stevens. Does this include helicopters? Have we 
included some additional armor on helicopters?

                         HELICOPTER PROTECTION

    Admiral Willard. Sir, the helicopters--the rotary-winged 
assets that are in theater are armored. And when we have 
referred to ``up-armor'' in the past, we're referring to up-
armor on our wheeled vehicles, by and large; and there are up-
armored kits, and they range from, literally, steel to 
composite-material up-armor, which is significantly lighter, 
but, nonetheless, affording some protection. So there are 
various tiers of armor, but it's generally the wheeled vehicles 
that we're talking about.
    Senator Stevens. Well, the last time I managed a bill on 
the floor, I faced substantial questions from Members about 
whether this amount was sufficient to up-armor the vehicles. 
Can you assure us the money that's in this bill will take care 
of the demands for up-armoring in the balance of this fiscal 
year?
    Ms. Jonas. Senator, we have $2.7 billion in the 
supplemental request. And, to our knowledge, that meets the 
requirement that U.S. Central Command (CENTCOM) has, at this 
point. We've also asked for about $200 million in the baseline 
2006 budget. Just to note, up to this point we've spent about 
$5.4 billion from the funds that were provided through the $25 
billion that this subcommittee helped with, and also 
reprogrammed about $2.6 billion. So we think we're fairly well 
covered, to this point.

                PROPOSED AIRCRAFT PROCUREMENT REDUCTIONS

    Senator Stevens. All right. The 2006 budget produces the 
planned buys for both the C-130J and the F/A-22. Secretary 
Rumsfeld has testified that both reductions may be reversed. 
And the QDR that's coming out, the Quadrennial Defense Review, 
will address, specifically, the F-22, I am informed. The Air 
Force initially planned to buy 168 C-130J's and signed a 
contract to buy 62. But the 2006 budget proposes to end that 
program after buying 53 aircraft. The 2006 budget also called 
for ending production of the F/A-22 in 2008, at 179 aircraft, 
as opposed to the previously planned 268. And that was expected 
to save $10.4 billion.
    Some of us raised questions about the cancellation costs 
and whether they were adequately taken into account. I 
understand that the Department is considering a reversing 
decision by the Secretary's decision. And can you tell us--What 
should we do? Should we wait for a budget amendment, or should 
we take it on our own to try and adjust this? When will the 
decision be made?

                     AIRCRAFT PROGRAM: C-130J/F-22

    Admiral Willard. Sir, we have a number of both studies in 
play and reviews coming up that are intended to answer the 
question on the capabilities mix of both our mobility forces 
containing C-130J and our tactical forces within the scope air 
dominance that contained the F-22 capabilities. A mobility 
capability study is current ongoing, expected to read out at 
the end of March; and that mobility capability study is all 
forms of strategic mobility--air, ground, and sea--in addition 
to intra-theater lift assets, such as C-130J. And we will be 
better informed when that mobility capability study is under 
review with regard to the exact mix of aircraft that are 
required.
    One of the key factors in the C-130J decision had to do 
with Marine Corps aircraft and the intent to supply a full 
number of Marine Corps tankers from that buy. And that's one of 
the challenges that we face now with regard to the exact timing 
of, and scope of, the reduction, the savings, to ensure that 
the Marine Corps get those aircraft.
    Insofar as F-22 is concerned, the upcoming Defense review 
will study air dominance within an air control operations 
capability area. And within air dominance, a very heavily 
invested area for the Department, there are a variety of both 
tactical aircraft and other systems involved. F/A-22 is one of 
those. And within the scope of that capability area, we intend 
to determine where the F-22 fits and what mix of F-22s--what 
number of F-22s are most appropriate for the Department.

                         OTHER AREAS OF CONCERN

    Senator Stevens. We need to talk to--it's my understanding 
that some of the monies requested are not currently authorized. 
They're in the intelligence portion of the budget. And so, I 
think, Ms. Jonas, that our only alternative now is to have a 
classified hearing on that portion of the request that are 
before us. And I would hope that you would cooperate with us on 
that sometime soon.
    Ms. Jonas. Certainly, Senator.
    Senator Stevens. I'm really very concerned about some other 
questions, but time is running on us. We, in particular, want 
to talk about modularity, in terms of the change to the 
brigade-based force. Perhaps those questions would be best 
addressed to the chiefs, when they appear before us, 
particularly the Army chief. But the Army National Guard 
problem has not been finalized. We're going to have a difficult 
time handling that money unless we understand what's going to 
be the contribution of the Guard to total force in that area. 
But I also have a question here regarding the decision to 
decommission the John F. Kennedy. I'm going to submit several 
of those questions to you, just for the record, because they're 
questions that have been suggested by other Members.
    We look forward to working with you. And I know it's a 
difficult problem.
    I think I should tell you that a number of our colleagues 
now share some of the comments we're hearing from the 
Democratic members of the committee concerning the question of, 
When will we start full budgeting for the ongoing operations, 
on the basis that what we're doing is no longer conducting a 
war, but peacekeeping operations in both Afghanistan and Iraq? 
That's going to be a difficult question for us on the floor, 
and I urge you to work with other members that are going to be, 
from the Department, coming before us, so we can be assured 
that we're all operating on the same assumptions with regard to 
this process of having budgets for the war zones be continued 
in supplementals after that basic war has been terminated. We 
still have the war on terrorism, as such, and we can understand 
the antiterrorism activities may be difficult to budget for in 
advance, but the planning for the continued assistance through 
the period of adjustment, in both Afghanistan and Iraq, are 
such that many of--as I said, many members are telling me and 
members of this subcommittee that they believe we ought to see 
a normal budgeting process.
    Now, the President has submitted a 2006 budget, and that's, 
you know, an accomplished fact. I'm sure we're not going to ask 
to change that. But looking forward to 2007, I'd like to know 
what representations we can make about the practices that the 
administration will follow with regard to ongoing peacekeeping 
operations in Afghanistan and Iraq.
    I hope that you will consider that a fair question and will 
get some response from the Department before we get to the 
floor on the supplemental.
    Ms. Jonas. Certainly, Mr. Chairman. We look forward to 
working with you on those questions.
    Senator Stevens. Thank you very much. I appreciate your 
patience.

                     ADDITIONAL COMMITTEE QUESTIONS

    I should tell you, there's a full-blown debate going on, on 
the floor, and there are two other subcommittees meeting at the 
same time, so there are others who may have questions to 
submit, and we will notify you if they do.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                  Questions Submitted to Tina W. Jonas
               Questions Submitted by Senator Ted Stevens
                               retention
    Question. We are concerned about retention of our Special 
Operations forces. We understand that both the 2006 President's Budget 
and the Emergency Supplemental request include additional funding to 
support retention. What is the status of Special Forces retention and 
how is the Department addressing this issue?
    Answer. Preliminary reports from the Special Operations Command 
(SOCOM) indicate that fiscal year 2005 retention is beginning to show 
improvement with special offerings recently made available. Currently, 
the Services are preparing their first fiscal year 2005 retention 
report for submission to the personnel community within the Office of 
the Secretary of Defense with a mid-April target date. The report will 
be submitted quarterly. Additional information should be available 
after the Service reports are submitted.
    Beginning on January 1, 2005, the Department implemented a SOF 
retention package that included: Critical Skills Retention Bonus (CSRB) 
for Enlisted personnel and Warrant Officers in designated occupational 
specialties; Special Duty Assignment Pay (SDAP) for Enlisted personnel 
(E-4 through E-9) in SOCOM designated billets; Assignment Incentive Pay 
(AIP) for Enlisted personnel and Warrant Officers operators in SOCOM 
designated billets with more than 25 years of service; and Critical 
Skills Accession Bonus for Warrant Officers with SOF skills.
         cost of operations enduring freedom and iraqi freedom
    Question. I understand that the Department has absorbed the cost of 
Operation Noble Eagle within the baseline budget for fiscal year 2006. 
What is the Department's plan for absorbing the cost of Operations 
Enduring Freedom and Iraqi Freedom within the baseline budget?
    Answer. The Department included ONE costs in the baseline budget 
because these costs are no longer temporary in nature and can be 
predicted.
    Baseline DOD budgets include funds for organizing, training and 
equipping our military. They do not include costs for Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF) operational 
tempo (OPTEMPO). These costs are more difficult to predict because of 
the continuing insurgency activity. Currently, we are not able to 
estimate with great certainty the troop deployment, fuel utilization, 
logistics and transportation requirements, nor the composition (Active 
vs. Reserves) of forces to be deployed. Because of these unknowns, any 
estimate prepared in time to be included in the fiscal year 2006 
President's request would have been flawed.
    Once these operations have fully stabilized and have predictable 
costs, and, if the decision is made to continue the operation on a 
long-term basis, the Department will transfer responsibility for OEF 
and OIF to the baseline budget, similar to when the funding from Balkan 
operations was transferred from the Overseas Contingency Operations 
Transfer Fund (OCOTF) to the Services accounts in fiscal year 2003.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                           corrosion funding
    Question. Last year the Government Accountability Office reported 
that corrosion costs the Department of Defense as much as $20 billion 
per year. The Services and GAO estimate the funding needed for 2006 is 
approximately $332 million for corrosion prevention projects. The GAO 
estimates the savings to investment ratio is 10 to 1, and projects with 
an 80 to 1 savings ratio are not uncommon. It would seem to me that 
programs which demonstrate a savings to investment ratio of 10 to 1 
would be the type of programs that you would want to fund. Since the 
return on investment is so great and the annual costs of corrosion so 
high, why is the Pentagon recommending not only such a small amount of 
funding this year but also an amount that is significantly less than 
what was recommended last year? Can we expect to see an increase in 
corrosion funding in the future?
    Answer. In the fiscal year 2006 President's budget request, the 
Department has included approximately $15 million annually (fiscal year 
2006-fiscal year 2011) in Defense-wide accounts. The decision on how 
much to request in fiscal year 2006 was based on the need to fund 
competing priorities as we established an on-going corrosion prevention 
program.
    The Department's fiscal year 2006 request for corrosion prevention 
provides funding for projects with a projected average return on 
investment (ROI) of at least 10 to 1. We will re-examine corrosion 
prevention funding in fiscal year 2007 and beyond as we are able to 
assess the actual savings realized by our fiscal year 2005 and fiscal 
year 2006 funded projects. Thus, any future funding increase will 
depend on our ability to validate our ROI projections and realize 
projected savings while taking into account the Department's other 
funding needs. The Department believes this approach in combating the 
insidious effects of corrosion is both sound and methodical.
    The Department is taking steps to address corrosion and is taking 
corrosion seriously. All major systems are required to address 
corrosion prevention and control throughout the total life cycle of 
systems, from development through sustainment. This requirement is 
expected to result in significant long term corrosion cost avoidance.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                          joint common missile
    Question. As you know, the Joint Common Missile (JCM) was 
terminated in Presidential Budget Decision 753. Eight months into Phase 
1 of System Design and Development, JCM is a remarkably healthy, low-
risk program on schedule, on budget, and successfully demonstrating 
important new capabilities for the warfighter. Canceling the JCM 
ignores the opinion of our top military leaders and deprives our 
servicemembers of a new capability they need to survive against future 
threats. Can you explain why this program was targeted?
    Answer. The Joint Common Missile was terminated for a variety of 
reasons, including affordability, as well as demonstrated capabilities 
of current munitions such as Hellfire II, the Joint Direct Attack 
Munition, and Laser-Guided Bombs. Good alternatives for Joint Common 
Missile exist, so this is an area where the Department is able to take 
a certain amount of risk. Also, the Air Force is refurbishing Maverick 
missiles and is developing the Small Diameter Bomb Increment 2 to field 
similar capabilities as the Joint Common Missile.
    Question. Further, the JCM meets Joint Service requirements and 
fills a critical capabilities gap that cannot be met by upgrading 
existing weapon systems. For example, JCM has twice the standoff range 
of the Hellfire, Longbow, and Maverick missiles it will replace on 
Army, Navy and Marine Corps aircraft. The accuracy of its tri-mode 
seeker will give our forces precision-strike lethality to eliminate 
threats that are located near non-combatants. That is why the top-
ranking officers in all three services that have requested JCM--the 
Army, Navy, and Marine Corps--all believe the program must be restored. 
How can you justify terminating this program?
    Answer. As stated above, the Joint Common Missile was terminated 
for reasons of affordability and demonstrated performance of other 
munitions. In addition to capable weapons such as Hellfire II, Joint 
Direct Attack Munition, and Laser-Guided Bombs, the Department is 
scheduled to begin production of the Small Diameter Bomb Increment 1 
this fiscal year, which will also limit collateral damage for fixed 
target attack. A follow-on Increment 2 for Small Diameter Bomb under 
development will offer moving target attack, which will offer 
capabilities similar to the Joint Common Missile.
                     kwajalein joint control center
    Question. It is my understanding that your Department is 
considering the increased use of ``remote operations'' for the 
Kwajalein Test and Space Operations site. As I understand it, this 
would mean both a cost savings and increased efficiencies with the 
handling of sensitive data. Further, I have heard that this 
``remoting'' will be conducted from a new ``Kwajalein Joint Control 
Center'' to be located in Huntsville, Alabama. I support this move in 
efficiency and cost savings and would ask that you provide me an update 
on the current status of this proposed project and the out-year funding 
profile necessary to support this activity.
    Answer. The Army is currently conducting an in-depth review of the 
U.S. Army Kwajalein Atoll/Reagan Test Site (USAKA/RTS) to determine a 
means of optimizing range operations. A key cost saving recommendation 
is to remote the operation of radars and sensors from Kwajalein back to 
the United States via fiber optic connection. Some of the operations 
personnel, currently located on Kwajalein, could be moved to a remote 
operations center in the United States. With fewer personnel on 
Kwajalein the cost of supplying public works, services and 
infrastructure on the atoll could be reduced. The Army is studying the 
concept of remote operations, including a survey of possible locals in 
the United States for the remote operations center, but has not yet 
selected a location for that center.
    The Army has not yet committed to any changes in operations at 
Kwajalein. The Army has funded a marine survey to determine the 
possibility of fiber installation on the ocean floor. The total cost of 
installing fiber could be between $36 million and $55 million--
depending upon whether or not there is Federated States of Micronesia 
and/or Marshall Island National Telephone Authority participation. 
Leasing the fiber is also under consideration, and may be more cost 
effective. The cost of standing up a remote operations center is 
estimated at $7 million.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
                           accounting reform
    Question. Secretary Jonas, the reform of the Pentagon's accounting 
systems is imperative to allowing the Defense Department to pass a 
thorough audit, as required by law. But funds appropriated for the 
Business Management Modernization Program (BMMP) in past years have 
been under-expended, indicating that the program has slowed down from 
its rapid start.
    What specific goals or milestones do you expect the BMMP to achieve 
in fiscal year 2006?
    Answer. The program is being realigned to support tangible 
transformation efforts. Essential to this effort is delivering BEA 3.0 
and a complete, comprehensible Transition Plan by September 30, 2005. 
These deliverables will facilitate the Department's transformation 
efforts which are now focused on rapidly implementing specific Business 
Enterprise Priorities. The first priorities we are addressing are: 
Acquisition visibility; common supplier engagement; materiel 
visibility; real property visibility; financial visibility; and 
personnel visibility.
    Within each of these priorities are a set of initiatives that have 
short (6 months), mid (12 months) and long term (18+ months) impact on 
the Department's transformation efforts and will be selected based on 
its ability to deliver a needed capability or business improvement to 
the Department.
    It is true that the BMMP has under-expended in prior years. 
However, beginning in fiscal year 2005, execution is on track. As of 
June 2005, over 91 percent of Operation and Maintenance, Defense-Wide 
(O&M, D-W) and approximately 90 percent of Research, Development, Test 
& Evaluation, Defense-Wide (RDT&E, D-W) funds (including prior year 
funds) are obligated. The balance of funds available will be obligated 
during the fourth quarter projected to be disbursed by September 30, 
2005, with the remaining dollars disbursed in October and November 
2005.
    Question. Do you expect that the Department of Defense will 
continue to have a significant amount of unexpended funds by the end of 
the current fiscal year? When do you expect the unexpended funds that 
existed at the end of fiscal year 2004 to be fully obligated?
    Answer. The Department is projecting that approximately $251 
billion will be unexpended at the end of fiscal year 2005. Of this 
amount, approximately $205 billion (unliquidated obligations) represent 
legally binding contracts resulting in the ultimate cash payment at a 
subsequent time. The remaining $46 billion (unobligated balances) 
represent amounts which are available for approved programs but which 
are not yet obligated. These funds are committed to the programs for 
which initially appropriated but are awaiting the completion of 
contracting or other legal prerequisites of contracting before the 
funds are fully obligated.
    The unobligated balances related to multiyear appropriations at the 
end of fiscal year 2004 will be fully obligated by the end of fiscal 
year 2006 with the exception of Shipbuilding and Military Construction 
appropriations that will expire for obligational purposes at the end of 
fiscal year 2008.
    Question. What is the status of efforts to cut down on the large 
number of unnecessary charge cards in the Department of Defense? How 
many charge cards are now in circulation, and is the Department now 
carrying out credit checks to cut down on the number of cards issued to 
individuals whose credit record might indicate a high risk for charge 
card abuse?
    Answer.
Efforts to cut down the number of cards
    For the purchase card, we have established internal controls to 
automatically shut down a card that has been inactive for 6 billing 
cycles. In addition, Program Coordinators can now run a report that 
lists cards with little or no activity.
    For the travel card, the Department entered an agreement with Bank 
of America to prevent charges against accounts that have not been used 
in a twelve month period.
    For the Fleet and Aviation Intoplane Reimbursement (AIR) cards, 
accounts that do not show activity over a 6 month period will be 
highlighted and the account will be closed unless sufficient rationale 
to keep the account open is provided.
Number of charge cards in circulation and credit checks
    For the purchase card, the number of card holder accounts is 
approximately 112,000, which is less than half of the over 230,000 
purchase cards that were in circulation in 2001. Regarding the issue of 
credit checks, the Department's legal determination is that existing 
statutes preclude obtaining actual credit checks without the 
cardholder's consent (i.e. Privacy Act, Fair Credit Reporting Act, 
etc). If cardholders consent, the Department uses a ``Creditworthiness 
Evaluation'' to assist in determining the creditworthiness of potential 
cardholders. The Systems of Records Notice to allow credit checks 
without cardholder consent is being reviewed by GSA's Office of General 
Counsel. Once completed, bargaining with local bargaining units will be 
required, which will involve discussions with over 1,400 bargaining 
units and is expected to take a minimum of 2 years.
    For the travel card, there are approximately 975,783 open accounts, 
down from 1,370,477 in 2002. The Department has always conducted credit 
checks from the outset of the program, if an individual gave consent. 
We cannot conduct credit checks without individual consent under the 
Fair Credit Reporting Act. Individuals with a satisfactory credit score 
are issued a standard card with $5,000 limit and individuals with a 
lower score, or who decline a credit check, are issued a restricted 
card with a $2,000 limit. Since January 2004, 1,917 applications have 
been denied.
    For the Fleet and Aviation Intoplane Reimbursement (AIR) cards, 
there are 58,221 and 20,075 cards, respectively. Since the Fleet cards 
are issued to DOD owned or leased vehicles or equipment and the AIR 
cards are issued to aircraft, no credit checks are performed because 
neither card is assigned to a specific individual.
                             healtheforces
    Question. Thanks to a collaborative effort that I helped to 
initiate between Walter Reed, Marshall University, and the National 
Technology Transfer Center (NTTC), diabetic patients and other chronic 
disease sufferers in Southern West Virginia will be better able to 
manage their disease and enhance their quality of life. Marshall's Byrd 
Center for Rural Health has adapted the HEALTHeFORCES program and is in 
the process of launching HEALTHeWV at Marshall University Medical 
Center and other rural clinics in Southern West Virginia. The NTTC, in 
turn, will lay the groundwork for the program's implementation at other 
sites in the State and nation. HEALTHeWV is a shining example of 
linking national health care advancements with local expertise to meet 
West Virginia's unmet health care needs.
    Secretary Jonas, how is this program progressing toward 
implementation in West Virginia?
    Answer. The Marshall's Byrd Center is currently implementing 
HEALTHeFORCES to selected facilities within West Virginia. The 
HEALTHeSURVEY module was implemented at Marshall University Medical 
Center in June 2004. HEALTHeCARD and HEALTHeNOTE modules were 
implemented in March 2005. Pre-implementation activities are currently 
underway at Tug River Health Clinic, McDowell County, WV.
    Question. Given the fact that President Bush has pointed to an 
expanded use of information technology as a primary way to reduce 
health care costs in America, and given the fact that HEALTHeFORCES has 
proved to be incredibly cost-efficient and consumer-friendly, what 
steps will the Department take in conjunction with the NTTC to expand 
the use of HEALTHeFORCES technology in other states?
    Answer. The Army has delivered a functioning HEALTHeFORCES 
technology to the National Technology Transfer Center for further 
expansion as appropriate.
                                 ______
                                 
            Questions Submitted to Admiral Robert F. Willard
               Questions Submitted by Senator Ted Stevens
                           reduction in force
    Question. The fiscal year 2006 budget requests funding to 
decommission the U.S.S. John F. Kennedy. How will this reduction in 
force affect readiness and our overseas military presence?
    Answer. The Fleet Response Plan enables the Navy today to surge 
multiple carriers on demand. Under the 6+2 plan, 6 carriers are 
available within 30 days to meet commitments and another 2 will be 
available within 90 days. A force reduction of one carrier may alter 
the availability to either 6+1 or 5+2, depending on scheduling factors. 
However, a fleet of 11 carriers will maintain readiness standards to 
source the most demanding defense scenarios within acceptable risk 
guidelines. Additionally, the reduction from 12 to 11 carriers aligns 
with the currently available 11 Carrier Air Wings.
    A primary contribution of carriers to the defense strategy is 
deterrence through global presence. The Navy will continue to maintain 
the required carrier presence. Innovative global force management 
practices will enable joint solutions, such as Air Force aircraft in a 
forward region, to augment or substitute for carrier presence to meet 
Combatant Commander needs. Overseas presence and deterrence is further 
bolstered by an increase in rotational expeditionary forces from all 
Services under the global presence and basing strategy.
    In summary, the Department of Defense must make difficult force 
structure trades under a constrained budget to meet current and 
emerging challenges. The Department of Defense and the Navy are 
undergoing aggressive transformation while still executing phase IV 
operations in Operations IRAQI and ENDURING FREEDOM. The future 11-
carrier fleet enabled by the Fleet Response Plan, technological 
advances, improved training, and superior maintenance will provide the 
capability required to successfully execute the defense strategy.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                            missile defense
    Question. I understand that a key aspect of the Department's 
missile defense strategy is to pursue a layered defensive system, 
designed to intercept and destroy ballistic missiles of all ranges, 
during any phase of their flight. The recent successful test of an 
operationally configured Standard Missile 3 from a Navy Aegis cruiser 
is an indication of the potential for one part of the layered system. 
Could you share with this committee your assessment of the missile 
defense effort, and how this budget proposal might affect the 
Department's ability to achieve the layered system that is envisioned?
    Answer. The Missile Defense Agency (MDA) continues to develop and 
incrementally field a joint, integrated and multi-layered defense--the 
Ballistic Missile Defense System (BMDS)--against all ranges of 
ballistic missiles. Layered defenses are important because they provide 
defense in depth across all phases of flight (boost, midcourse and 
terminal) and make deployment of enemy countermeasures more difficult. 
The recent success of the Standard Missile 3 test from an Aegis cruiser 
adds confidence to our ability to address the short- to intermediate-
range ballistic missile threats. Development of other capabilities 
continues to address the entire capability range of the threats.
    The MDA has followed a funding strategy of retaining alternative 
development paths until a capability is proven. The fiscal year 2006 
budget proposal supports the development for fielding of various BMDS 
elements and components, including the: Ground-based Midcourse Defense 
(GMD), Terminal High Altitude Area Defense (THAAD), Airborne Laser 
(ABL), Kinetic Energy Interceptor (KEI), improved sensors, and battle 
management. All of these elements of the BMDS, and other efforts, will 
combine to achieve a robust, layered defense.
    The warfighter's assess that MDA has a balanced approach to 
developing and fielding capabilities that take into account the 
evolving threats. The fiscal year 2006 missile defense budget proposal 
supports the funding strategy by focusing resources on the most 
promising development paths to create a multi-layered defense to 
protect the homeland, deployed forces, friends, and allies against 
ballistic missile attack.
    Question. The budget proposal truncates the C-130J program after 
fiscal year 2006, leaving both the Air Force and Marine Corps short of 
their modernization objectives. From the joint perspective, how will 
this proposal affect the Defense Department's air transport and 
refueling capabilities?
    Answer. At the time the decision was made to truncate the C-130J 
program, recent studies indicated that the current tactical airlift 
fleet could support the military strategy. Additionally, there was an 
incomplete understanding of the associated contract termination 
liabilities. However, with the recent flight restrictions placed on 
portions of the C-130 fleet and better understanding of the contracting 
implications, the Department of Defense has recently stated a 
willingness to re-evaluate the C-130 capability required and the 
decision to truncate the C-130J program.
    The Mobility Capability Study (MCS) and the Quadrennial Defense 
Review (QDR) will address the transport and refueling requirements for 
the Department. These studies will also help determine the quantity and 
right mix of transports and cargo aircraft required for the joint 
force. The MCS should be ready for release in the spring of 2005 and 
the QDR should be completed by February 2006.

                          SUBCOMMITTEE RECESS

    Ms. Jonas. Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much.
    Admiral Willard. Thank you, Mr. Chairman.
    [Whereupon, at 11:03 a.m., Tuesday, March 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
